HHS/OIG, Audit - "Follow-up Audit of the Medicaid Drug Rebate Program in
the District of Columbia," (A-03-07-00216)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of the
Medicaid Drug Rebate Program in the District of Columbia," (A-03-07-00216)
January 4, 2008
Complete
Text of Report is available in PDF format (294 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to
determine whether the State agency had (1) implemented the recommendations made
in our previous audit of the Districts drug rebate program and (2) established
controls over collecting rebates on single source drugs administered by
physicians.  The State agency implemented the recommendations from our
prior audit.  However, the State agency did not collect rebates on single
source drugs administered by physicians or establish controls over and
accountability for their collection.
We recommended that the State agency (1) implement policies
and procedures to collect and submit utilization for single source drugs
administered by physicians so that the District may obtain rebates for the drugs
and (2) collect rebates for single source drugs, retroactive
to January 1, 2006, when it implements its single source drug rebate program.
The State agency concurred with our findings and stated that
it plans to adhere to our recommendations.